Vincent M. Wagner
Deputy Solicitor General

Direct Dial: (501) 682-8090
vincent.wagner@arkansasag.gov

November 5, 2020
Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Gardner v. Arkansas, No. 20-5517 ***CAPITAL CASE***

Dear Mr. Harris:
I write on behalf of Respondent to request a 15-day extension of the November 12, 2020
deadline for filing a response to the petition for a writ of certiorari in this matter, making a response due on November 27. Petitioner’s counsel does not oppose this extension, which is the
second extension requested by Respondent.
This second extension is necessary because of other professional obligations, including
recent and upcoming certiorari-stage filings in multiple other cases before this Court handled by
members of the Solicitor General Unit of the Arkansas Attorney General’s Office. See, e.g., Arkansas v. Gresham, No. 20-38; Johnson v. Arkansas, No. 20-48; Lard v. Arkansas, No. 20-5874.
Additionally, the Solicitor General Unit has been primarily responsible for multiple emergency
lawsuits in federal court about the November 3, 2020 general election, which have related in part
to the COVID-19 pandemic in Arkansas.
Thank you for your kind assistance in this matter.
Sincerely,
/s/ Vincent M. Wagner
Vincent M. Wagner
cc: Teri Lisa Chambers, teri.chambers@arkansas.gov, Counsel for Petitioner

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

